<html>
<title> - TECHNICAL ASSISTANCE FOR RURAL WATER SYSTEMS: S. 611, THE GRASSROOTS RURAL AND SMALL COMMUNITY WATER SYSTEMS ASSISTANCE ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


  TECHNICAL ASSISTANCE FOR RURAL WATER SYSTEMS: S. 611, THE GRASSROOTS 
         RURAL AND SMALL COMMUNITY WATER SYSTEMS ASSISTANCE ACT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2015

                               __________

                           Serial No. 114-89
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                               ____________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
98-825 PDF                      WASHINGTON : 2016                          
        
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0c7d0cfe0c3d5d3d4c8c5ccd08ec3cfcd8e">[email&#160;protected]</a>  
                  
                   
                   
                   
                   COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
                                 

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                 7_____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Vice Chairman          PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. Gregg Harper, a Representative in Congress from the State of 
  Mississippi, opening statement.................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    40

                               Witnesses

Kirby Mayfield, Executive Director, Mississippi Rural Water 
  Association....................................................     8
    Prepared statement...........................................    10
    Answers to submitted questions...............................    49
Robert Stewart, Executive Director, Rural Community Assistance 
  Partnership....................................................    16
    Prepared statement...........................................    18
    Answers to submitted questions...............................    51

                           Submitted Material

S. 611, the Grassroots Rural and Small Community Water Systems 
  Assistance Act, submitted by Mr. Shimkus.......................    42
Statement of the Environmental Protection Agency, October 22, 
  2015, submitted by Mr. Shimkus.................................    47

 
 TECHNICAL ASSISTANCE FOR RURAL WATER SYSTEMS: S. 611, THE GRASSROOTS 
         RURAL AND SMALL COMMUNITY WATER SYSTEMS ASSISTANCE ACT

                              ----------                              


                       THURSDAY, OCTOBER 22, 2015

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2123 Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Harper, Latta, 
McKinley, Johnson, Flores, Cramer, Tonko, Schrader, Green, 
McNerney, and Pallone (ex officio).
    Staff present: Will Batson, Legislative Clerk; Rebecca 
Card, Assistant Press Secretary; Jerry Couri, Senior 
Environmental Policy Advisor; Dave McCarthy, Chief Counsel, 
Environment and the Economy; Chris Sarley, Policy Coordinator, 
Environment and the Economy; Dan Schneider, Press Secretary; 
Christine Brennan, Democratic Press Secretary; Jacqueline 
Cohen, Democratic Senior Counsel; Rick Kessler, Democratic 
Senior Advisor and Staff Director, Energy and Environment; 
Alexander Ratner, Democratic Policy Analyst; and Timia Crisp, 
Democratic AAAS Fellow.
    Mr. Shimkus. The committee will come to order, and the 
Chair recognizes himself for an opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Today, we are reviewing Senate Bill 611, the Grassroots 
Rural and Small Community Water Systems Assistance Act. This 
bill, which passed the Senate by unanimous consent on June 9th 
of this year, is the Senate companion to H.R. 2853, introduced 
by our ranking member of the subcommittee, Mr. Tonko, and the 
vice chairman of the subcommittee, Mr. Harper.
    I congratulate and thank them for their bipartisan work to 
raise the profile of this issue before the subcommittee and 
encouraging our work on it.
    According to the Census Bureau, approximately 27 percent of 
the U.S. population lives in rural areas. The smallest water 
systems account for 77 percent of all systems.
    As someone who proudly represents communities in small town 
and rural America, I am glad we have bipartisan interest in 
tackling this subject.
    Under the Safe Drinking Water Act, small and rural drinking 
water supply systems are subject to a number of drinking water 
regulations issued by EPA. These requirements include system 
monitoring, treatment to remove certain contaminants and 
reporting.
    Addressing these matters requires technical, managerial, 
and physical capabilities that are difficult to develop and are 
often beyond the capacity of these towns to afford on the same 
scale as urban centers, particularly when it comes to 
regulatory compliance.
    It is ironic that these communities, where residents work 
hard to support their families and their local governments 
while often earning wages below those of their counterparts in 
the more urbanized areas, face per customer compliance costs 
and demands that are disproportionate to many larger 
communities.
    Sometimes, it is just a matter of having the ability to 
keep up with the red tape. Rather than throwing more scarce 
money at the problem, we learned in February that these 
communities need help to smartly assess what their needs are 
for these systems and prioritize the importance of those needs.
    The bill before us amends Safe Drinking Water Act to 
reauthorize the EPA's program providing technical assistance to 
small public water systems.
    Senate Bill 611 maintains the existing statutory authority 
of $15 million annually, including 3 percent for technical 
assistance to public water systems owned or operated by Indian 
tribes, but changes the law to cover funding from fiscal year 
2015 through fiscal year 2020.
    The bill also authorizes EPA to provide technical 
assistance programs to small public water systems through 
grants or cooperative agreements made to nonprofit 
organizations.
    The bill requires preference in awarding grants to 
nonprofits that are most qualified and experienced and that 
small water systems find most beneficial and effective--a 
feature we heard about during our February hearing.
    Finally, while Senate Bill 611 prevents grants and 
cooperative agreements from being used to bring a citizen suit 
under the Safe Drinking Water Act, it expands the types of 
activities eligible to receive a grant or cooperative agreement 
under this Safe Drinking Water Act to include assistance with 
source water protection plans, monitoring plans and water 
security.
    I want to thank our witnesses who joined us. Having this 
hearing today is all the more important because, while the 
House Appropriations Committee has not provided small water 
technical assistance funding for fiscal year 2016, that 
committee has left open the option that it would reevaluate 
funding for this matter as part of a later annual spending bill 
if Congress enacts a fresh authorization.
    People who live in rural communities deserve every bit of 
water quality and technical resources that folks who live in 
densely populated urban centers do.
    We look forward to your wisdom in helping us understand 
these issues. Thanks again to Mr. Tonko and Mr. Harper for 
their work on this issue.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Today we are reviewing S. 611, the Grassroots Rural and 
Small Community Water Systems Assistance Act. This bill, which 
passed the Senate by unanimous consent on June 9, 2015, is the 
Senate companion to H.R. 2853, introduced by our ranking member 
of the subcommittee, Mr. Tonko, and the vice chairman of the 
subcommittee, Mr. Harper, I congratulate and thank them for 
their bipartisan work to raise the profile of this issue before 
the subcommittee and encouraging our work on it.
    According to the Census Bureau, approximately 27 percent of 
the U.S. population lives in a rural area. The smallest water 
systems account for 77 percent of all systems. As someone who 
proudly represents communities in small town and rural America, 
I am glad we have bipartisan interest in tackling this subject.
    Under the Safe Drinking Water Act, small and rural drinking 
water supply systems are subject to a number of drinking water 
regulations issued by EPA. These requirements include system 
monitoring, treatment to remove certain contaminants, and 
reporting. Addressing these matters requires technical, 
managerial, and physical capabilities that are difficult to 
develop and are often beyond the capacity of these towns to 
afford on the same scale as urban centers--particularly when it 
comes to regulatory compliance.
    It's ironic that these communities, where residents work 
hard to support their families and their local governments, 
while often earning wages below those of their counterparts in 
the more urbanized areas, face per customer compliance costs 
and demands that are disproportionate to many larger 
communities. Sometimes, it's just a matter of having the 
ability to keep up with the red-tape.
    Rather than throwing more scarce money at the problem, we 
learned in February that these communities need help to smartly 
assessing what their needs are for these systems and prioritize 
the importance of those needs.
    The bill before us amends Safe Drinking Water Act to 
reauthorize the EPA's program providing technical assistance to 
small public water systems.
    S. 611 maintains the existing statutory authorization of 
$15 million annually (including 3 percent for technical 
assistance to public water systems owned or operated by Indian 
Tribes), but changes the law to cover funding from fiscal year 
2015 through fiscal year 2020. The bill also authorizes EPA to 
provide technical assistance programs to small public water 
systems through grants or cooperative agreements made to non-
profit organizations. The bill requires preference in awarding 
grants to non-profits that are most qualified and experienced 
and that small water systems find most beneficial and 
effective--a feature we heard about during our February 
hearing.
    Finally, while S. 611 prevents grants and cooperative 
agreements from being used to bring a citizen suit under SDWA, 
it expands the types of activities eligible to receive a grant 
or cooperative agreement under this SDWA to include: assistance 
with source water protection plans, monitoring plans, and water 
security.
    I want to thank our witnesses who joined us. Having this 
hearing today is all the more important because, while the 
House Appropriations Committee has not provided small water 
system technical assistance funding for fiscal year 2016, that 
committee has left open the option that it would re-evaluate 
funding for this matter as part of a later annual spending bill 
if Congress enacts a fresh authorization.
    People who live in rural communities deserve every bit of 
water quality and technical resources that folks who live in 
densely populated urban centers do. We look forward to your 
wisdom in helping us understand these issues.

    [The proposed legislation appears at the conclusion of the 
hearing.]
    Mr. Shimkus. I yield the balance of my time, and I now 
yield to Mr. Tonko for the purpose of making an opening 
statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Chair Shimkus, and good morning. For 
holding this hearing, we thank you. It is important to review 
the Grassroots, Rural and Small Community Water Systems 
Assistance Act.
    I am very pleased to be working with you, Chair, and with 
Representative Harper and the other members of the subcommittee 
to move this bill forward.
    Sen. Wicker's bill and its companion, H.R. 2853, offers a 
small but important step that we need to take to support small 
water utilities. S. 611 reauthorizes a small but important 
program that delivers technical assistance and training to 
community water systems.
    The ratepayer base for these small systems does not provide 
a sufficient operating budget to support full time technical 
positions.
    Technical assistance programs like circuit riders and 
source water protection programs help small utility operators 
to keep clean safe drinking water flowing to their customers.
    Our community water utilities have needs that go far beyond 
technical assistance, of course. The hearing in our 
subcommittee back in February provided us with ample evidence 
of the many needs of small community water utilities.
    The situation that exists in rural, suburban and 
metropolitan areas across our country with respect to the 
condition of our drinking water infrastructure is indeed very 
serious.
    Drinking water infrastructure across the country is in need 
of major repairs and major upgrades. Communities are struggling 
to find the resources needed to maintain water mains, pumping 
stations and drinking water treatment facilities.
    Households and businesses across our country expect 
reliable daily delivery of safe clean water at an affordable 
price to their homes and their businesses.
    They not only expect it, it is essential to the social and 
economic viability of every community, of every household, of 
every business.
    The inconvenience, the disruption of daily activities and 
economic losses to businesses of emergency shutdowns to 
drinking water systems is indeed significant, even for a 
shutdown of short duration.
    A longer term break in service, as we all know, is 
devastating. Water utilities, especially those with small rate 
basis, cannot simply pass all of their costs for technical 
assistance, infrastructure repairs, tapping into new water 
sources or keeping pace with drinking water regulations on to 
their customers by raising rates.
    The backlog of maintenance is now too large to be covered 
by rate increases alone. It is long past time for Congress to 
step in and provide robust financial support, support that 
would repair and modernize this essential infrastructure.
    Too often now utilities are responding to emergency 
situations, situations created by ruptures of water mains or 
sudden problems with raw water quality or quantity. Emergency 
response costs far more than a systematic planned program of 
repair and replacement.
    The Environmental Protection Agency's most recent report on 
drinking water infrastructure and their needs indicates that--
an investment of $384.2 billion over the next 20 years, about 
$19 billion, that is, per year.
    Because past Congresses failed to heed the information that 
we asked the agency to produce this number has grown by about 
$157 billion since the first report was issued back in 1995.
    We are headed in the wrong direction. Clearly, more 
resources are needed. We are not saving money by continuing to 
ignore this problem. We are only passing an ever growing 
maintenance bill onto our children and grandchildren and 
generations yet unborn.
    Our parents and grandparents invested in the infrastructure 
that enabled our Nation to grow and our Nation to prosper. We 
have a responsibility to ensure that the Nation's 
infrastructure remains a strong foundation for prosperity into 
the future.
    In addition, to support through traditional funding 
mechanisms the State revolving loan fund and grant programs, we 
should also examine alternative financing mechanisms, new 
technologies and potential new partnerships that would enable 
every dollar to go that much further in reducing the backlog of 
infrastructure projects.
     We cannot afford to delay these investments any longer. 
The bill for these repairs is growing, growing larger over time 
and failure to maintain these systems jeopardizes public health 
and limits development and economic growth.
    Public health, community viability and economic vitality 
all rest on the foundation of sound infrastructure.
    We cannot maintain global leadership and compete in a 21st 
century global economy with poorly maintained 20th century 
infrastructure.
    And so, Mr. Chair, I hope this bill will not be the 
subcommittee's last effort on drinking water this Congress. I 
am certain that other members hear about this problem in their 
districts as often as you and I do.
    If we work together we can rebuild this essential 
infrastructure and foster economic growth and protect public 
health. We have an excellent panel with us today and I thank 
you both for taking time away from the important work that you 
do to be here with us this morning.
    With that, I look forward to your testimony and to working 
with you going forward. Let us build our drinking water 
infrastructure.
    With that, I yield back to the Chair.
    Mr. Shimkus. Gentleman yields back his time.
    The Chair now recognizes the vice chair of the committee 
and the coauthor, along with the ranking member, of the House 
version of this legislation, Mr. Harper, for 5 minutes.

  OPENING STATEMENT OF HON. GREGG HARPER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Harper. Thank you, Mr. Chairman, and thank you so much 
for our witnesses being here.
    Mr. Chairman, thank you for holding this legislative 
hearing on S. 611, the Grass Roots Rural and Small Community 
Water System Assistance Act.
    As you well know, this issue is of great importance to our 
constituents who live in rural and small communities. Rural 
water system often find themselves at a loss when complying 
with Federal rules and regulations and the technical assistance 
provided by S. 611 is the tool they use to ensure they are 
meeting the needs of their customers.
    I appreciate the work Mr. Tonko and his staff have done on 
this issue and for his help in introducing H.R. 2853, the House 
companion bill to S. 611.
    I also would like to welcome my friend, Kirby Mayfield, the 
executive director of the Mississippi Rural Water Association, 
and I look forward to hearing today from each of these 
witnesses and working on these rural water issues in the 
future.
    With that, I yield back, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time.
    Chair now recognizes the ranking member of the full 
committee, Mr. Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you.
    I am pleased that the subcommittee is returning to the 
important issue of drinking water safety. We started this 
Congress by examining some emerging drinking water threats 
including toxic blue green algae and the legislation this 
subcommittee passed on harmful algal blooms is now taking 
effect and it has set us on a path to address that serious 
threat.
    We also held a hearing back in February on problems facing 
rural water systems. As we heard then, these systems are facing 
serious threats from outdated infrastructure, lack of funding 
and extreme weather.
    We in Congress have continued to underfund infrastructure 
improvements and have continued to undermine efforts to address 
climate change. So we should expect these problems to get worse 
before they get better.
    Resources are central to any conversation about safe 
drinking water. Much of our Nation's drinking water 
infrastructure is well beyond its useful life and in desperate 
need of replacement. Investing in drinking water infrastructure 
protects public health, creates jobs and boosts the economy.
    It is imperative that this subcommittee take on the 
important task of reauthorizing the drinking water State 
revolving fund. The longer we put off drinking water repairs, 
the more pressing the public health threats become.
    But the subcommittee is not tackling that important task 
today. Instead, the majority is focused on a small pot of money 
set aside for technical assistance for small public water 
systems.
    This money, distributed through grantees including the 
National Rural Water Association and the Rural Community 
Assistance Partnership, has been important for small systems 
though it does not begin to close the infrastructure funding 
gap that they face.
    Both NRWA and RCAP will be represented on the panel today 
and I look forward to hearing from them about how this program 
can be implemented to the greatest benefit for small systems 
and public health.
    I expect the committee and probably the House will move 
this legislation. It will be signed by the president. That is a 
good step and I welcome it. But it is not the whole solution 
for small systems or for our drinking water infrastructure.
    Small systems serve only 8 percent of the population. We 
should absolutely do what is necessary to ensure they have safe 
water.
    But we should also protect the other 92 percent and that 
means reauthorizing the SRF, ensuring that fracking is done 
safely, ensuring source water protection, addressing drought 
and planning for climate change.
    I liked the algae bill we worked on earlier this year. This 
bill shows that we can come together to pass laws and address 
drinking water issues.
    So I hope my Republican colleagues will see this only as 
the beginning and I thank the chairman for calling this 
hearing.
    I particularly thank the ranking member of our 
subcommittee, Mr. Tonko, for his leadership on drinking water 
issues.
    I don't know if anybody else wants my time. If not, I will 
yield back, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    I am pleased that the subcommittee is returning to the 
important issue of drinking water safety. We started this 
Congress by examining some emerging drinking water threats, 
including toxic blue green algae. The legislation this 
subcommittee passed on harmful algal blooms is now taking 
effect, and it has set us on a path to address that serious 
threat.
    We also held a hearing back in February on problems facing 
rural water systems. As we heard then, these systems are facing 
serious threats from outdated infrastructure, lack of funding, 
and extreme weather. We in Congress have continued to underfund 
infrastructure improvements and have continued to undermine 
efforts to address climate change, so we should expect these 
problems to get worse before they get better.
    Resources are central to any conversation about safe 
drinking water. Much of our Nation's drinking water 
infrastructure is well beyond its useful life, and in desperate 
need of replacement. Investing in drinking water infrastructure 
protects public health, creates jobs, and boosts the economy.
    It is imperative that this subcommittee take on the 
important task of reauthorizing the drinking water State 
Revolving Fund (SRF). The longer we put off drinking water 
repairs, the more pressing the public health threats become.
    But the subcommittee is not tackling that important task 
today. Instead, the majority is focused on the small pot of 
money set aside for technical assistance for small public water 
systems. This money, distributed through grantees including the 
National Rural Water Association (NRWA) and the Rural Community 
Assistance Partnership (RCAP), has been important for small 
systems, though it does not begin to close the infrastructure 
funding gap they face.
    Both NRWA and RCAP will be represented on the panel today, 
and I look forward to hearing from them about how this program 
can be implemented to the greatest benefit for small systems 
and public health.
    I expect the committee and probably the House will move 
this legislation, and it will be signed by the President. This 
is a good step, and I welcome it.
    But it is not the whole solution for small systems, or for 
our drinking water infrastructure. Small systems serve only 8% 
of the population. We should absolutely do what is necessary to 
ensure they have safe water, but we should also protect the 
other 92%. That means reauthorizing the SRF, ensuring that 
fracking is done safely, ensuring source water protection, 
addressing drought, and planning for climate change.
    Like the algae bill we worked on earlier this year, this 
bill shows that we can come together to pass laws and address 
drinking water issues. I hope my Republican colleagues will see 
this as only the beginning.
    I thank the chairman for calling this hearing and 
particularly thank the ranking member of the subcommittee, Mr. 
Tonko, for his leadership on drinking water issues.

    Mr. Shimkus. The gentleman yields back his time.
    So, again, welcome. Your full statement is submitted for 
the record. You will have 5 minutes. We are not going to be, 
you know, harsh on the time but we appreciate you coming in and 
making the effort to be here.
    So, first of all, I would like to recognize Mr. Kirby 
Mayfield, executive director of the Mississippi Rural Water 
Association. You are recognized for 5 minutes.
    Welcome.

 STATEMENTS OF KIRBY MAYFIELD, EXECUTIVE DIRECTOR, MISSISSIPPI 
    RURAL WATER ASSOCIATION, AND ROBERT STEWART, EXECUTIVE 
        DIRECTOR, RURAL COMMUNITY ASSISTANCE PARTNERSHIP

                  STATEMENT OF KIRBY MAYFIELD

    Mr. Mayfield. Thank you, and good morning, Chairman 
Shimkus, Ranking Member Tonko, members of the subcommittee.
    I am Kirby Mayfield, the executive director of Mississippi 
Rural Water Association, a nonprofit association of over 1,000 
small rural communities as members.
    All small and rural communities have the very important 
public responsibility of complying with all Federal water 
regulations and for supplying the public with safe drinking 
water and sanitation every second of every day.
    Small and rural communities often have difficulty providing 
safe affordable drinking water and sanitation due to limited 
economies of scale and lack of technical experience.
    I am very proud that our congressman on the committee, 
Representative Greg Harper, is sponsor of the Grassroots Rural 
and Small Community Water Systems Assistance Act in the House 
of Representatives. Thank you very much, Congressman Harper.
    Attached to my written testimony is a letter from the New 
York Rural Water Association to Representative Tonko, stating, 
``On behalf of all the rural small communities in the 20th 
congressional district in the State of New York, we are 
grateful to Congressman Tonko for being the original cosponsor 
of the Grassroots Rural Water Small Community Water Systems 
Assistance Act and for your continued assistance.''
    Mr. Chairman, I used to be a rural water circuit rider for 
over a decade back in Mississippi. As a circuit rider, as a 
water operations and compliance assistance technician who 
travels the State to be available on site and immediately to 
any small community that has water issues, the circuit rider 
concept was designed and funded by Congress to allow small 
communities access to technical expertise that is available to 
most all larger communities.
    A typical on-site contact could include ensuring the water 
service is protected and secure, discovering and repairing a 
faulty chlorination system, assisting the community to remove 
and replace the filtration media, training a new operator to 
run that particular treatment system, finding engineering and 
construction errors in a new sewer system, solving lead and 
copper rule problems or completing all the paperwork for 
funding programs including the State revolving funds.
    Often this means being available to travel to the 
communities on nights, weekends and during disasters when the 
problem occurs. Each community's water infrastructure is 
unique, which means technical assistance must be available to 
address that community's particular problem.
    Regarding the Grassroots Rural and Small Community Water 
Systems Assistance Act, small and rural communities urge the 
subcommittee to approve the bill for the following reasons.
    The EPA appropriation bill directs about one-half of 1 
percent of the agency's internal budget to drinking water 
technical assistance.
    Of the billions of dollars provided to EPA by Congress each 
year, small rural communities will tell you they see and feel 
the most benefit from the dollars provided to on-site technical 
assistance.
    The bill reauthorizes the Safe Drinking Water Act technical 
assistance provision and mandates that EPA target congressional 
funding for the most beneficial assistance to small rural 
communities.
    The preference provision in the bill ensures EPA will 
follow congressional intent and administration of the 
appropriations.
    This provision would have implementing the program easier 
for EPA by providing greater clarity of the intent of Congress 
to require EPA to ask each technical assistance provider 
competing for the funding to simply demonstrate to what extent 
community water systems find their proposal to be the most 
beneficial and effective.
    Small and rural communities are very hopeful the bill can 
be enacted in the remaining weeks of this congressional session 
and be operative in this appropriations cycle.
    Currently, the small rural communities are struggling under 
new Federal regulations, complex funding program applications 
and continuing mandatory operator training requirements.
    Thank you again for the opportunity to appear before the 
subcommittee and discuss this very important public health 
issue for small and rural communities.
    I would be happy to entertain any questions from the 
subcommittee. Thank you.
    [The statement of Mr. Mayfield follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. Thank you, Mr. Mayfield.
    And now I will turn to Robert Stewart, executive director 
of Rural Community Assistance Partnership Incorporated, and I 
think you were here a couple months ago. It is great to have 
you back, and welcome.

                  STATEMENT OF ROBERT STEWART

    Mr. Stewart. Thank you so much, Chairman.
    I really appreciate the opportunity to come back and, 
Chairman Shimkus and Ranking Member Tonko and members of the 
committee, it really is a pleasure to be here and talk to you 
about this subject.
    I think what we have heard already has laid a great 
foundation sort of describing what the problem is. But, you 
know, I am here to testify in support of any efforts including 
this legislation that can increase the availability of 
technical assistance and training for small community water 
systems that is provided by those nonprofit organizations best 
suited to provide this assistance that have staff on the ground 
in every State and that is directed at meeting the most 
critical needs of small communities in regards to regulatory 
compliance, financial, managerial and technical sustainability.
    My name, again, is Robert Stewart. I am with the Rural 
Community Assistance Partnership, which is a national 
organization, been around 40 years working with a couple 
thousand rural communities every year primarily on water and 
wastewater issues as well as solid waste, affordable housing 
and economic development issues.
    Section 1442(e) of the Safe Drinking Water Act amendments 
of 1996 were meant to help small communities comply with the 
increasing regulatory burden that was being placed on them by 
the Safe Drinking Water Act, sort of a trade-off where we are 
going to ask you to comply with additional requirements and 
these have been coming down significantly in the last 20 years.
    In order to comply with these things, we said it was going 
to be a Congress--you all said it was going to be necessary to 
provide some technical assistance and that is what 1442(e) 
has--was meant to do and has been--we have been working on.
    And, you know, since the expiration of the initial 
authorization Congress had continued to fund this program, 
which we are very--we are very much appreciative of, the 
thousands of small communities that rely on this technical 
assistance are appreciative of.
    You know, I might point out that it has been sort of 
somewhat distressing to us the EPA has never included this 
funding within their own budget and it has fallen on the 
National Rural Water Association and my organization to come to 
Congress to sort of have these funds appropriated every year.
    At the same time, EPA, and Mr. Mayfield was sort of 
alluding to this in a way but I will say it more directly, EPA 
has spent a lot of money on developing a variety of tools and 
programs that are meant to help small communities but which I 
think in large part have been of marginal usefulness to these 
small communities.
    You know, so one thing I want to talk about, which is--I 
don't think it is probably under discussion here at all but 
why--you know, what is the need for on the ground kind of 
assistance that RCAP and National Rural Water Association 
provides.
    You know, we have heard about the lack of staffing. 
Typically, you have volunteer staff in these small communities, 
people that might be working part time.
    Many times there is a lack of expertise in meeting the kind 
of regulatory requirements that these systems fall under in 
regard to the operations and the compliance.
    There is a real difficulty in accessing existing financing 
sources.
    Whether that is due to the EPA's State revolving funds or 
the rural development's water environment program, it is just--
it requires a lot of sophistication in order to understand that 
they are there, access those fundings, meet all the 
requirements and then carry through a construction project.
    There is also just a variety of issues just in managing a 
small water utility. This is just like any other business you 
might come across except it exists in a heavily regulated 
environment.
    And you combine providing a public service, heavily 
regulated environment, lack of resources, it is just very 
difficult for small systems--small community systems--to sort 
of meet all these requirements without some additional kind of 
training and technical assistance such as the legislation that 
we are considering here provides.
    The needs are many, as I said before, and I understand the 
resources are few, and I think any time we have a chance to 
direct the resources to where it is needed the most you are 
going to see NRWA and RCAP being in support of that and I think 
that is what this does.
    There are a lot of opportunities that we have heard 
mentioned. I know Mr. Tonko mentioned a couple of these things. 
You know, regionalization in small communities is something we 
really need to see.
    We need to sort of be in a mode of sharing resources and 
working together. As you all know, there are 5,600 thousand 
community water systems in this country. It is just how many 
electric utilities are there.
    You know, I mean, hardly any compared to the tens of 
thousands of small water systems there are. But the needs, 
again, you know, emergency preparedness--we have heard about 
these--a drought, training and equipping operators in small 
systems, a budget and rate setting, you know, accessing 
informational resources.
    You know, there is just this whole litany of needs that 
small communities have a real difficult time meeting whereas 
when you look at the larger utilities they will have 
professional engineers on staff, CPAs on staff, planners on 
staff.
    And in a small utility like Mr. Mayfield was referring to 
specifically, it is usually one person that has, you know, 10 
different jobs.
    And so it has been really tough and so I just welcome the 
opportunity to talk more about this. I am going to end it here 
because hopefully you all have some questions that I can answer 
and I am sure Mr. Mayfield and I would be happy to answer any 
questions you might have.
    Thank you.
    [The statement of Mr. Stewart follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Shimkus. Thank you, Mr. Stewart.
    Before we get to questions for our witnesses, I would ask 
unanimous consent that all members of the subcommittee have 5 
legislative days to submit an opening statement on this hearing 
into the record.
    Also a written statement from the U.S. EPA on the subject 
of today's hearing will be included in the record and a written 
statement from the American Water Works Association on the 
subject of this hearing be included in the record if it is 
submitted to the committee by the end of the week.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    And will recognize myself 5 minutes to start the 
questioning and this is for both of you and then we will go to 
Mr. Mayfield and Mr. Stewart.
    What is the role of technical assistance through the Safe 
Drinking Water Act in helping you comply with the law and avoid 
adverse public health impacts?
    Mr. Mayfield. Our technical assistance through our circuit 
rider program we go out and help these systems. It doesn't 
matter if it is technical, managerial or financial. We respond 
to these systems and these water systems--these operators look 
up to us to keep them updated on what the new Federal rules and 
regulations are.
    So we are constantly doing training and even on-site 
training when we go and we are training them on what the new 
regulations are and how to meet them.
    Mr. Shimkus. Mr. Stewart.
    Mr. Stewart. Yes, I totally agree. I think the small water 
systems, when they are faced with the new rules like there is a 
revised Total Coliform Rule, which is unbelievably long and 
hard to digest, you know, if you have someone that it out there 
on site than can explain that to them probably in 10 or 15 
minutes as opposed to spending hours trying to wade through a 
regulation or call somebody to try to get that information.
    So I think the technical assistance under the Safe Drinking 
Water Act is meant for compliance purposes. So that is the 
bottom line.
    One thing, I think, and this was just mentioned, that I 
think we need to keep in mind is that compliance is not just a 
function of being able to operate the system.
    It is a function of also being able to finance and manage 
that utility and sometimes I have had the impression that that 
has not been EPA's priority.
    EPA's priority as far as where they are putting the money 
that you have appropriated has been strictly on the operations 
and compliance end and somewhat neglecting the foundation of 
all utilities, all businesses and that is to have sustainable 
management financing in place.
    Mr. Shimkus. Great. Thank you.
    How is the--how is the uncertainty, which we are living in 
right now, over funding or use of technical assistance provided 
under the Safe Drinking Water Act Section 1442(e) affected your 
organization?
    Mr. Mayfield.
    Mr. Mayfield. With Mississippi Rural Water, it has affected 
us with a reduction of staff. We have had to lay off two of our 
staff members that was funded under this program.
    We are trying to keep our services up but sometimes it is 
difficult.
    Mr. Shimkus. Mr. Stewart, do you want to add to that?
    Mr. Stewart. You are referring to my organization or the--
--
    Mr. Shimkus. Well, no. Just to the organizations like Mr. 
Mayfield. What is the observation of the effect on them?
    Mr. Stewart. Yes. I think what happens is that if they 
don't have this kind of assistance they are going to fall out 
of compliance.
    They are not going to be able to pay their bills. They are 
not managing their utility correctly and what does that cause? 
That causes more problems for the State regulators.
    And so, I mean, a small investment in technical assistance 
and outreach that we are talking about here prevents a large 
amount of money being spent by the States to enforce the rules, 
you know, send out administrative orders, you know, follow up 
on that.
    I mean, it is a whole lot better to spend a little money to 
sort of keep a system from going out of compliance than it is 
to get them back into compliance.
    Mr. Shimkus. Thank you.
    And my last question for you, Mr. Stewart, do you hope that 
Senate Bill 611 will streamline the way EPA currently 
implements Section 1442(e) of the Safe Drinking Water Act?
    Mr. Stewart. My honest answer would be no, and that is just 
because on reflection of how they used--how they have used the 
money in the past that has been appropriated for this purpose.
    They have taken a long time to get this money out to the 
successful people that are competing, which has typically been 
rural water and RCAP.
    They have taken typically a year and a half from the time 
the appropriations is until the money actually flows to our 
organizations when we have been successful in competing for 
this funding.
    And they have also--and I don't want to repeat what I 
already said but there is also this emphasis on the money just 
to go strictly to a compliance operational approach and not 
what we really need.
    They are all the same. It is like a three-legged stool, 
right? I mean, if you don't have the operations, you don't have 
the finance, you don't have the management all together 
supporting the utility then it is going to fall.
    Mr. Shimkus. So I think you are saying you would like for 
this to help streamline the process?
    Mr. Stewart. Yes.
    Mr. Shimkus. OK.
    Mr. Stewart. And, excuse me, sir. I think it will. I think 
it will provide some help and some additional direction and 
that is, you know--because it is sort of--you know, this could 
be used by nonprofit organizations for certain purposes and for 
activities that are supported and needed by the small 
communities.
    Mr. Shimkus. Great. Thank you very much.
    I yield back my time and now recognize the ranking member 
of the subcommittee, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you again, Chair Shimkus, for calling this 
hearing and I also want to, again, thank my colleague, Mr. 
Harper, for the work that he has done on this important issue.
    Drinking water systems in every congressional district are 
facing significant challenges as they work to ensure everyone, 
even people in small communities, have access to safe drinking 
water.
    It seems that every week we read about water supply 
problems, water main breaks or other events that disrupt our 
drinking water supplies and services.
    Mr. Stewart, much of our drinking water infrastructure is 
decades old and in need of repair or replacement. That is as 
true for small communities as for large ones.
    Your testimony emphasizes the need for technical assistance 
in applying for funds as well as for dealing with finance and 
management issues.
    When small systems need infrastructure repairs or 
replacement, is it just a matter of not knowing how to access 
funds or is there also a need to make additional funding 
resources available?
    Mr. Stewart. I think it is both because if you can't access 
the existing funding then that funding is going to go to the 
larger communities. The small communities just have a hard time 
accessing that funding just because of the requirements 
associated with those.
    But I don't think there is any doubt. I mean, you quoted 
EPA studies. There has been AWWA studies. There has been the 
engineering organizations which have done studies, and it is an 
unfunded need.
    We definitely need in this country more money to be 
invested in water utilities urban and rural.
    Mr. Tonko. Thank you, and how would a small system obtain 
immediate funding needed for emergency repairs when they 
experience a major problem with their infrastructure or with 
their source water?
    Mr. Stewart. Well, one thing my organization has done--I 
know rural water has done some of this as well--we have six 
regions around the country and two of our regions operate a 
nationwide loan fund.
    So if somebody needs money within a small amount of time, 
we have been able to capitalize loan funds from a variety of 
sources, typically foundations, rural development and other 
sources.
    So that--so that if there is a--if there is like a tank 
failure or a pump failure and somebody needs money immediately 
it is really hard to go to a community bank and get that kind 
of funding. So they can come to our revolving loan funds for 
that funding and we turn it around in a couple of weeks.
    Whereas if you try to go to rural development or the SRS 
you are looking at months and months and months. It just 
doesn't work.
    Mr. Tonko. Thank you.
    The technical assistance programs have been funded in the 
range of $12 to $15 million for a number of years now, this 
year at, I believe, $12.7 million.
    There are over 48,000 small systems across our country and 
these systems, indeed, are aging. So it seems to me that while 
this core funding is useful, inflation alone would suggest that 
a higher authorization for funding should at least be 
considered.
    So I would ask both of our witnesses, both gentlemen, would 
a more generous funding level enable your organizations to 
better meet the needs of small utilities?
    Mr. Mayfield. Yes, very much so it would. You know, we see 
the funding levels be real competitive when our systems, 
especially our smaller systems, have to go after the funding 
and you got some larger systems out there after the same 
funding. It is real competitive and having more funding would 
be a--help a whole lot better.
    Mr. Tonko. And you point out in your testimony that in 
addition to technical assistance, small systems also have 
difficulty getting access to capital.
    So I assume that loans are not an option for many of these 
small systems and with a small rate base for further increases 
in water and sewer rates, it isn't a feasible option either.
    It seems to me we need to provide additional funds to 
enable these systems to repair and replace older 
infrastructure. Would you agree?
    Mr. Mayfield. I agree with that.
    Mr. Tonko. And would you support legislation to reauthorize 
the SRF and increase the funding available?
    Mr. Mayfield. Yes.
    Mr. Tonko. Would greater funding for both the SRF and 
technical assistance be put to good use in these systems?
    Mr. Mayfield. Very much so it would.
    Mr. Tonko. Both of your organizations offer training and 
certification programs for small system operators. Is that 
correct?
    Mr. Mayfield. That is correct.
    Mr. Tonko. And I have heard from several of my small water 
utilities that they are having a difficult time recruiting and 
retaining people to operate these systems and that many current 
operators are approaching retirement age. So the backup supply 
is of a concern.
    Are there also workforce issues that we need to be 
concerned about, from your perspective?
    Mr. Mayfield. We do see that. The aging workforce, we have 
seen lots of operators will be retiring in the near future and 
not many young people coming up and, you know, National Rural 
Water has been looking at it for several years now how we could 
recruit more young people into the organization.
    Mr. Tonko. Now, do you think perhaps the lack of available 
pool of trained people, skilled people, interested people might 
be because we have ignored this issue?
    Mr. Mayfield. Yes, sir. I sure do.
    Mr. Tonko. OK. Well, look, I appreciate your testimony and 
your support for the legislation. I hope to continue to work 
with my colleagues on both sides of the aisle to address the 
other challenges our drinking water systems face and certainly 
with your very important input too. So thank you again for 
appearing before the subcommittee today.
    With that, I yield back.
    Mr. Shimkus. Gentleman's time has expired.
    Chair now recognizes the vice chair of the committee, Mr. 
Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman.
    And again thanks to you, Mr. Stewart, Mr. Mayfield, for 
being here. This is an issue that affects every community and 
our country.
    Mr. Mayfield, how many local water associations are part of 
your organization?
    Mr. Mayfield. There are 1,250 public utilities in the State 
of Mississippi and we have a 1,057 as our members. Of course, 
we still go help the ones that is not members, too.
    Mr. Harper. So it is--it is quite a responsibility then, 
isn't it?
    Mr. Mayfield. Yes, sir. It really is.
    Mr. Harper. Would you give maybe a specific example or two 
of the technical assistance that you provide to those 
association members?
    Mr. Mayfield. Would love to.
    In the Mississippi Delta where the poverty is real low, we 
have a little town called Shaw, Mississippi, up there. Shaw, 
Mississippi's chlorination equipment went down at one time. 
They could not provide the chlorination or the chlorine into 
the water so they just quit putting chlorine into the water.
    Then their electrical control panels on their wells went 
down so they were having to go out there every day to turn the 
well on, fill the tank up, and just hope it stayed full.
    And this went on for about 3 months. The primacy agency put 
them under a boil water notice and then we finally got the call 
to go up there, and our circuit rider went in and it was just 
something the matter that was wrong with the chlorination 
equipment.
    He got the chlorination equipment up and going. Went over 
to the wells and tanks and got the electrical control panel 
going and then he stayed with them to be sure they could pull 
some clear water samples. They got chlorine in the water.
    This town was having to buy bottled water for their school 
every day for three months there and this circuit rider come 
in. Within just a matter of a few days, had this system back 
into compliance and up and running.
    Mr. Harper. That is great.
    Mr. Mayfield. That is just one of the many cases. In Wayne 
County, I mean, near Waynesboro, Mississippi, back last spring 
when we had a series of storms go through our State, one of our 
systems had a creek crossing blow out in the river over there.
    Well, the operator of this system had cancer and had been 
sent to Houston for treatment and so when this creek crossing 
blowed out the board members had to take it on their own with 
what few employees--really, meter readers, basically--didn't 
know where everything was and they searched for that leak for 
two days.
    They called our--called our office and I sent our circuit 
rider over there. Within about 4 hours he had to leave town in 
the creek.
    But not only did he find the leak, he realized that without 
their operator there how desperate they was during this time. 
He stayed right there with them all day and almost night until 
they got the water fixed and back up and running.
    Mr. Harper. That is great. And how many circuit riders do 
you have?
    Mr. Mayfield. We have 3 circuit riders in Mississippi.
    Mr. Harper. So they are pretty busy folks then, aren't 
they?
    Mr. Mayfield. Ninety-five to 97 percent of their time is 
for calls only now.
    Mr. Harper. Got it.
    Mr. Mayfield. They are working calls.
    Mr. Harper. Got it. Well, why can't State regulators or EPA 
provide technical assistance for the regulations that they 
impose on communities?
    Mr. Mayfield. The primacy agencies, you know, their men and 
women are engineers coming out of college. To be a circuit 
rider one of the national requirements is that you have a 
minimum of 5 years' experience actually out operating a system.
    So our circuit riders can go out there and talk to these 
guys, men and women, just like they know everything going on. 
They have the hands-on experience of getting in that mud hole, 
fixing that leak, where these coming out of college does not 
have that experience. And it gives the operator as well as the 
circuit rider--they bond a lot closer together being there.
    Mr. Harper. That is great.
    We had a hearing earlier in the year, and some of your 
colleagues from Mississippi testified that of all the billions 
of dollars that Congress provides to the Federal agencies for 
environmental programs, the only technical assistance that 
small and rural communities see and utilize is the assistance 
from these on-site circuit riders.
    Please explain a little more what they meant by that.
    Mr. Mayfield. When these systems have a problem, we are the 
first call they make. I know you are from Mississippi and you 
have seen it advertised on TV, one call that is all. In the 
water business that is rural water.
    That is the circuit riders. We are a one-stop shop. If they 
need technical managerial financial help we go in and help 
them.
    We have went in, done great studies to where these systems 
have set there on their rates for years and years and not 
raised their rates and go in and help them get the rates at the 
right level and then they move forward from there.
    Mr. Harper. You know, we just recognized the tenth 
anniversary of Hurricane Katrina, and I know my time is almost 
up. But just briefly tell what you went through after that and 
what service you provided for those areas affected after 
Hurricane Katrina and other hurricanes.
    Mr. Mayfield. That is a good question. Hurricane Katrina 
was something that none of us was prepared for but through the 
proper training we was ready for it.
    Our water, as most of you know, much of the State of 
Mississippi was devastated by Hurricane Katrina. Within 5 to 6 
days, 99 percent of our water systems was back up and running 
and this was due to the help of Rural Water and those operators 
having the proper training through this program here, training 
on how to react when something like this happens.
    Rural Water jumped in and we got the easy systems up going, 
then we moved further south and we helped systems locate lines, 
locate leaks, fix leaks.
    We brought crews in from all over the State and other 
States. Florida, Louisiana, Arkansas sent crews in and we 
stayed with Cedar Bay, St. Louis, some of the coastal towns for 
up to four to five weeks staff training.
    Mr. Harper. Thank you, Mr. Mayfield. I appreciate it.
    My time is up but thank you so much for what you do and 
mean to our State. Thank you. I yield back.
    Mr. Shimkus. Gentleman yields back the time.
    The Chair now recognizes ranking member of the full 
committee, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    As I said before, the bill before us is a small step 
forward on drinking water issues by reauthorizing technical 
assistance for small drinking water systems and I appreciate 
our ranking member and chairman who are working on this issue.
    But I think it is unfortunate that we are considering the 
Senate language instead of similar language authored by Mr. 
Tonko to reauthorize this program because some of the terms in 
the Senate bill are unclear.
    Hopefully, we can use this time to build the legislative 
history on this bill and clarify the legislation.
    For example, in Section 4 paragraph 8 of S. 611, EPA is 
instructed to give priority to nonprofit organizations that are 
the most experienced. Similar language in Mr. Tonko's 
legislation would have given priority to the most effective 
organization. I think these terms are intended to be synonymous 
and we all agree that the money should go to the most effective 
organizations.
    Mr. Mayfield, I wanted to ask you would you say that the 
NRWA is effective because of its extensive experience?
    Mr. Mayfield. Yes, sir.
    NRWA is a nationwide program and like I said earlier, all 
of our people has a minimum of at least 5 years' experience 
working in the field with all these systems. So I think we are 
very experienced at it.
    Mr. Pallone. Thank you.
    Mr. Stewart, do you agree that RCAP's experience in this 
area helps your organization be effective?
    Mr. Stewart. I don't think there is any doubt about it. But 
when you are talking about experience and whether or not that 
experience is effective or not, small utilities need a wide 
variety of expertise in order to help them.
    You know, again, it is not just an operational issue about 
how to operate. You know, a lot of times they need somebody 
with the kind of background in accessing financing sources, 
budgeting, rate setting in order to get their financial 
situation in place.
    But one thing, I think, that--regardless, you know, I would 
hope Congress would look upon nonprofit organizations such as 
RCAP and National Rural Water Association as the best means to 
provide this assistance because in part we have people on 
ground--on the ground in every single State. There are other 
people that have been doing this work who may address a part of 
the need.
    But having the people on the ground with the experience and 
the expertise is the most effective way to do this.
    Mr. Pallone. All right. Thanks.
    I am mostly concerned that the bill could be interpreted as 
requiring EPA to conduct surveys in each of the States and 
territories to measure support for different nonprofit that 
might receive funds, and this would consume time and resources 
with little benefit.
    So Mr. Stewart, do you believe that EPA should be required 
to survey water systems in each State to determine which 
organizations provide the most beneficial services?
    Mr. Stewart. I would say not. I think EPA is aware of the 
organizations that provide the best service and that having to 
do a survey would just reiterate and reinforce what they 
already know.
    Mr. Pallone. Do you agree, Mr. Mayfield?
    Mr. Mayfield. I would say not.
    I would say that that should be left up to the organization 
presenting the proposal to EPA to explain to EPA how they are 
the most beneficial and provide the evidence.
    Mr. Pallone. All right.
    And the last thing I wanted to ask you is I am concerned 
that neither the existing statute nor the bill before us lists 
specific areas of technical assistance that would qualify for 
this funding.
    Can you--I will ask both of you--give the subcommittee a 
sense of the range of activities that you carry out with this 
funding? Each of you, if you would.
    Mr. Stewart. Well, it has varied over the years because 
what EPA has done is they have separated out a compliance 
section, a management finance section, a wastewater section and 
a private water well owner section. So and both NRWA and RCAP 
has gotten different pieces of this funding over the years.
    On the operational end, it has been very frustrating for me 
because we are constrained in not being able to provide 
management and finance assistance that supports the operational 
needs.
    You know, so what we have done--you know, we--it is 
basically a compliance driven thing, like, how do you meet the 
revised Total Coliform Rule, how do you come into compliance 
with the ground water rule.
    Well, that is all well and good but if you have, like, an 
arsenic problem that you are treating for the only way to come 
into compliance is to go through a financing arrangement where 
you are looking for funding to sort of, you know, provide the 
treatment--to get the money to provide the treatment.
    So that has been my frustration with the approach the EPA 
has used. You know, they obviously take the money that Congress 
provides and what they do with that money I don't think always 
is reflective of the intent of Congress.
    Mr. Pallone. Mr. Mayfield.
    Mr. Mayfield. We provide training and technical assistance 
and, you know, when we talk about technical assistance, like I 
said earlier, it is not just about the day to day operations in 
technical assistance.
    So, for instance, December 23rd in Marion County, 
Mississippi, a tornado went through Columbia. We--I had my 
people to verify with Columbia they was OK and Columbia came 
back and told us they were OK, everything was up and good and 
running.
    At 2:30 a.m. on Christmas Eve morning we get a call that 
the generator at Columbia had went down and they are at the 
hospital sitting right next to the treatment plant and they 
inform me when they call me at 2:30 a.m. that morning that we 
got 2 hours of water supply left for this hospital--what can 
you do to help us.
    We jumped into action and at 4:45 a.m. that morning we had 
the generator hooked up and was pumping water. So it is about 
being there when you are needed, 24 hours a day, 7 days a week.
    Mr. Pallone. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time.
    Chair now recognizes the gentleman from West Virginia, Mr. 
McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman, for the opportunity 
to have a discussion on this subject and I am pleased to be one 
of the cosponsors of the legislation that we have.
    I represent in West Virginia another--just like you, Mr. 
Mayfield--a rural impoverished State that struggles. We have 
the highest rate of unemployment.
    We have the second lowest per capita income in my district. 
I don't have--I have two cities that have 30,000 people. Other 
than that, every community is smaller than that. Some--I have 
got one community that only has 500 people, a seasonal 
community that maybe can grow to 2,000 during the winter. And 
they had a little problem.
    Here is a--here is a water line that they tried for 10 
years to get funds for and it only has the ability to pass 
maybe about 22 percent of the water through that line. But they 
can't get money.
    So I applaud this effort to try to get more technical 
assistance but I am--but I am wondering if we are chasing the 
wrong rabbit.
    I mean, it is good to get this, to get people lined up in 
the queue to get money. But we got to get the money. We got to 
have more money at the other end.
    The State revolving fund has been used as a pawn and I know 
in 2013 the president in his budget slashed almost 50 percent 
out of the money, out of the SRO.
    And if it weren't for members on the other side of the 
aisle when working with the Appropriations Committee we were 
able to get that money restored.
    But I don't know whether the administration and other 
people within the groups actually feel the need for rural 
America with the problems we have with us because this was done 
not with any--well, not dime of Federal money.
    They finally had to get the State to step in because 
everyone was saying there was just no Federal money. We can't 
do it because you are such a small community.
    I have got another community that has 75 families, that 
they get their--they have to get bottled water and they have 
been doing it for 2 years. They get their potable water so that 
they can flush their toilets out of a creek.
    These are middle-income people that have homes that are 
$150,000 to $200,000 in value, and they can't sell their home. 
Who is going to buy a home that doesn't have water to it?
    So I am very concerned about this. I want this legislation 
to pass. But I am equally and even more so concerned that we 
are giving false hope to people, get people in the queue to get 
money but there is no money because the allocation in the 
administration or whatever the programs are they are not 
funding it into rural communities to be able to help out on 
that.
    I know it. All the words sound right but in the real world 
I think as we live in, small communities aren't getting that 
money.
    And so what would you do then to help refocus this so that 
this administration or any administration can understand the 
hardship that is incurring on small towns, these little 
communities of 500 or 1,000 people? What would you do to get 
more money into that account?
    Mr. Mayfield. Well, I think that is something that we need 
to sit down and take a long look at, that the smaller systems 
gets more--is looked at more then they can be as competitive as 
the larger systems are.
    Let me just----
    Mr. McKinley. Would you agree that one of the--but one of 
the criteria they always say is where is your matching money. 
But a small town of 500 can't come up with that matching money.
    They have--I have got a community that has to come up with 
$12.5 million. What are they going to do? They only have 550 
customers.
    Mr. Mayfield. That is right. And there, again, at some 
point in time, that is where consolidation and merging may have 
to come into the picture when these smaller towns cannot come 
up with this matching money.
    Mr. Stewart. Honestly, there is no doubt that the water 
utilities in this country are under invested and it is not just 
the EPA SRF programs. It is Rural Development Water and 
Environment programs. They need more funding because you can't 
have one without the other. You need the technical assistance.
    One thing--for EPA's credit and Rural Development also is 
that they have been stressing just like our two organizations 
have for 40 years, asset management. You know, how do you take 
care of the equipment, the facilities that you have.
    And so EPA has been pushing on that, both of our 
organizations have been pushing on that to sort of, you know, 
maintain that investment, you know, once it is actually made.
    But if you don't make the investment and as we know this 
country is still growing, you know, and there are still needs 
that haven't been met. There is people in your State and in 
many other States that don't even have community water systems 
that are hauling water.
    And without that kind of investment those people are never 
going to get community water systems.
    So I think both NRWA and RCAP--I can't speak for NRWA. RCAP 
definitely supports increased funding for the SRF programs and 
the water environment program.
    Mr. McKinley. I have run out of time, but can you just give 
me an idea of what kind of money should we be spending, knowing 
that the SRF is just one amount and there are other sources? 
What kind of money should we be spending annually?
    Mr. Stewart. That is a tough one because, I mean, as we 
have heard, the needs are so great. The needs are in the 
trillions.
    I mean, an incremental increase, I mean, even if it was 
just 10 percent a year in each of those two programs, I mean, 
something to start making a dent in the backlog that we have 
seen anything would help.
    Mr. McKinley. Would you agree?
    Mr. Mayfield. I totally agree.
    Mr. McKinley. Thank you. I yield back my time.
    Mr. Shimkus. Gentleman's time has expired.
    Chair now recognizes the gentleman from Texas, Mr. Green, 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, for calling the hearing 
as part of the subcommittee's ongoing work on drinking water 
issues.
    Safe drinking water is a serious issue in our district as 
it is likely for every member of this subcommittee. Small and 
rural water systems face a number of very serious challenges 
and do not have the customer base to finance serious 
infrastructure repairs they need.
    Customers of public water systems in the country should be 
able to count on safety of the water coming out of their taps 
whether they live in a rural area, cities or suburbs.
    My question to the panelists, first of all, I have a very 
urban area but I also represent an unincorporated area that 
will not be annexed by our major cities because the property 
wealth is so low it would cost more to serve those areas with 
streets and water and sewer than it is to--so they are actually 
hemmed in by cities.
    And we have been able in the past to use assistance with 
matching funds to be able to bring down some of--from--for even 
very small urban water systems.
    How can consolidation help small and rural water systems, 
for example, in whether it be a rural area like Mississippi or 
even in an urban area like I have?
    Mr. Mayfield. You get more customer base, therefore you 
keep your rates as low as you can and more customers actually 
can help pay those loans and grants that you receive.
    I would like to, if I could, just step back just a quick 
second on technical assistance. When we are talking about 
technical assistance, one thing that is real good about our 
technical assistance providers, these men and women stay up on 
the latest technology out there, and when these towns, like you 
are talking about does go for loans and grants the engineer 
gives them a preliminary engineer report.
    Now, lots of times our circuit riders can sit down with 
these towns and look at this preliminary engineer report and 
say look, there is a cheaper and better way to do it.
    So we need to get these technical assistance providers 
working with these towns and cities on a case by case basis 
when it comes to these loans and grants.
    Mr. Stewart. Mr. Green, if I can just make a comment, and 
since Texas is my home State, as you know water availability is 
a big issue in Texas and if you have small communities that can 
come together and that can access either service or ground 
water, I mean, you have a much better chance of doing that, and 
we have always tried to get the cities--even if you are not 
annexing you can perhaps provide wholesale water or just do 
water and wastewater services in those areas by extending their 
CCNs.
    Mr. Green. Well, our situation we have done that. City of 
Houston has been able to--of course, you have to bring money to 
the table to make sure the city taxpayers are not doing it, but 
they would sell the water.
    Of course, in our area we still use ground water but mostly 
it is surface water because it is decided for the last 60 years 
and flooding issues.
    Mr. Stewart, when you testified before the subcommittee in 
February you mentioned several alternative service delivery 
approaches including sharing services, cooperative operations 
and management consolidation. How can these alternative 
approaches help small systems achieve better compliance? Is 
it--is there some bureaucratic rule that you can't do it or is 
it just a matter of----
    Mr. Stewart. No, I think it is a matter of having somebody 
that is facilitating getting multiple communities to work 
together, you know, so that--so that, you know, maybe you have 
two or three communities that are close enough and they can 
share an operator instead of hiring their own, you know.
    But sometimes, even though water systems are pretty good 
about knowing what is going on in their counties and stuff, you 
know, if you have somebody that can sort of facilitate those 
kind of sharing of service arrangements, I think that can make 
a big difference.
    Mr. Green. OK. Last Congress, our subcommittee introduced 
legislation, the AQUA Act, that would expand the definition of 
restricting for the SRF, the State revolving fund program, to 
explicitly include cooperative partnerships and joint personal 
agreements and consolidation.
    Mr. Stewart, would you support that change?
    Mr. Stewart. Yes, very much so. Yes.
    Mr. Green. And, again, in Texas there are challenges 
confronting water systems in my own State that are unique 
compared to other States, although I would compare some of my 
rural areas in east Texas with Mississippi--same problems.
    Are there differences and challenges confronting rural 
water systems and small systems in urbanized areas like that 
are found in my north and east Houston--Harris County area--
between a rural system and an urban system?
    Mr. Stewart. Well, you know, the economies of scale, like 
Mr. Mayfield and a couple have mentioned, are one issue. You 
know, part of the problem with small communities is just--can 
be availability of water, as you know, and I know in the 
Houston area, you know, you are getting off ground water and 
going to surface water, which is necessary. But----
    Mr. Green. Well, and most of the surface water we are 
getting is owned by the city of Houston, by the way.
    Mr. Stewart. Yes. So you are just at a--I hate to say, a 
competitive disadvantage if you are a small system and you are 
looking for water rights or for access to groundwater 
resources. You are just at a disadvantage, no doubt.
    Mr. Green. Thank you, Mr. Chairman, for the testimony and 
our witnesses.
    Mr. Shimkus. Gentleman yields back his time.
    We are waiting for Mr. McNerney to rapidly get here. So 
what I would like to just mention without objection is just 
talk about our push in southern Illinois to really encourage a 
lot of systems to move into a regional system--rural water, 
USDA rural water.
    It has been very successful because what I have observed is 
older systems, new regulations, small community, small rate 
based--as all the things that have been mentioned here, there 
is no ability to borrow the money, pay the rates.
    And so only through encouraging over time, you know, 
respectfully that most of my--most of my areas we are starting 
to close gaps in systems so that--and then the important thing 
is to make sure that we have clean potable water for our--my 
constituents and stuff and that has been--it has been a very, 
very successful program that we have worked on. It is very 
gratifying. It has been one of the things that I have been most 
proud of.
    This kind of untold story is when you can get safe drinking 
water to people who really haven't had or who have had to haul 
it for a time. So I am filibustering.
     Anyone want to add to that issue? We have kind of talked 
about it. Mr. Stewart.
    Mr. Stewart. Yes. Again, I think that, you know, in support 
of technical assistance, in order to facilitate regionalization 
you need somebody on the ground that can work with multiple 
communities that knows all about the finance management and 
technical aspects of it and that can think about different 
opportunities for communities to work together because, as you 
know, Chairman, this is not necessarily a physical 
consolidation.
    Maybe it is a managerial consolidation over multiple 
satellite systems. You know, again, for lack of a better word, 
there is more efficiencies. But, you know, if you are operating 
a small system and you are just trying to make the water come--
you know, come out of the pipe every day, you have a hard time 
looking forward, you know, a year in advance of what you need 
to be doing.
    Mr. Shimkus. Thank you very much.
    And I think the Chair is going to recognize my colleague 
and friend, obviously, since I waited for him, the gentleman 
from California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. Well, I thank the chairman for your patience 
and I thank the witnesses.
    Mr. Mayfield, it sounds like the circuit rider is a pretty 
interesting job. You get to go around and see different things 
just about every day.
    Mr. Mayfield. A new experience every day.
    Mr. McNerney. But that is a State-funded organization? You 
don't get any money from the Federal Government about that?
    Mr. Mayfield. We do get some money from USDA for the 
circuit rider program.
    Mr. McNerney. So they are helpful then. But this proposed 
legislation would help that then?
    Mr. Mayfield. That is correct.
    Mr. McNerney. Good.
    Mr. Stewart, I get the impression that you feel the EPA is 
well-meaning in terms of its new regulations. It is going to 
make water safer and, in fact, also well meaning in terms of 
trying to provide assistance. But they kind of miss the mark in 
their intention. Is that right?
    Mr. Stewart. Yes, sir.
    I believe that they could be better--they could better 
direct the kind of resources for where the needs are the 
greatest.
     Mr. McNerney. Would the proposed legislation help?
    Mr. Stewart. I think that is a--this is a great first step 
in that direction.
    Mr. McNerney. Thank you.
    Mr. Stewart, would planning and adapting to drought and 
other emergencies related to climate change be an acceptable 
technical assistance under current statute?
    Mr. Stewart. Yes, it is, because I know both Rural Water 
and RCAP are working with each other. We work with quite a few 
systems in the central valley of California that are having 
issues, you know, some that are actually still considered 
colonias in Riverside County and they have not only drought 
issues but, as you know, arsenic issues--just water quality 
issues.
    So yes. I mean, that is an acceptable use for the funding 
currently.
    Mr. McNerney. All right.
    And the current legislation wouldn't change that?
    Mr. Stewart. Not to my knowledge.
    Mr. McNerney. OK. Good.
    Mr. Mayfield, do you agree that the current statute 
protects you for planning for climate change or adapting to 
climate change?
    Mr. Mayfield. Yes, I agree with that.
    Mr. McNerney. Thank you.
    I am going to be brief here. Mr. Stewart, do you think the 
bill would restrict your ability to offer technical assistance 
in moving drinking water intakes or finding alternative source 
water?
    Mr. Stewart. No, I think that is--I think when you are 
talking about compliance you are talking not only the quality 
but availability and quantity. So I think that is all--we have 
never been told that that wouldn't be an acceptable use of the 
technical assistance money.
    Mr. McNerney. Is identifying and mitigating contamination 
acceptable technical assistance under current law?
    Mr. Stewart. Well, that is more of a source water 
protection kind of an issue the EPA has at times in the past 
funded separately. It is eligible but that is not really what--
if you look at the RFAs that come out from EPA for those 
purposes that is not what their emphasis has been. I would say 
that.
    Mr. McNerney. Would the new bill change that, in your 
opinion?
    Mr. Stewart. See, I am not sure--that is for you all to 
decide. I mean, you know, what you direct EPA to do and then 
what they do can be two different things and I am not the one 
to decide, you know, who is right--who is right on that. That 
is----
    Mr. McNerney. The chairman is smiling on this.
    Mr. Stewart. That is for you all to do, right.
    Mr. McNerney. Well, Mr. Mayfield, you offer training to 
monitor for and mitigate contamination. Is that right?
    Mr. Mayfield. That is correct. Yes, sir.
    Mr. McNerney. And that sounds like most of the time you are 
just reacting to crises. But you actually have some amount of 
resources to deploy in terms of training as well?
    Mr. Mayfield. Yes, sir.
    Before the money started getting cut through EPA, 
Mississippi had two, like, Mr. Stewart was talking about, 
source water people on the staff that was out in the field 
every day dealing with these type of problems. But, you know, 
when funding got cut we had to lay those two people off. But we 
still do it through training.
    Mr. McNerney. Thank you.
    Well, I think the assistance is very important. It will 
only become more so as climate change exacerbates the problems 
of our drinking water sources. So I hope we can continue to 
work together on these problems.
    Thank you, Mr. Chairman.
    Mr. Shimkus. Maybe I shouldn't have waited but--no, I am 
glad I did.
    So with that, seeing no other member wishing to ask 
questions we want to thank you all for traveling and spending 
time with us. We look forward to kind of moving promptly to try 
to get this through our system, get it to the floor so 
hopefully we can meet the time schedules that we all know that 
we need to meet.
    So with that, I will call the hearing adjourned.
    [Whereupon, at 11:06 a.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    Most members of our committee give personal attention to 
the needs of the small, rural water service providers in our 
districts. In particular, Mr. Harper, Mr. Tonko, and Mr. 
Shimkus have been exchanging ideas on how to better meet these 
challenges within the economic and budgetary realities we face 
and should be commended in getting us to where we are today.
    Many smaller and rural communities across Michigan and the 
United States face significant challenges in replacing, 
maintaining, and upgrading their aging drinking water 
infrastructure. These communities often face increased costs 
and burdens of meeting the complex regulatory requirements 
under the Safe Drinking Water Act. The bill before us today, 
which passed the Senate by Unanimous Consent back in June, and 
is the companion to H.R. 2853--introduced by Subcommittee Vice 
Chairman Gregg Harper and Ranking Member Tonko--helps these 
communities alleviate that burden. It authorizes EPA's current 
program in the Safe Water Drinking Act that provides technical 
assistance to small public water systems through 2020. It 
allows grants to non-profit organizations, but preference goes 
to non-profits that are most qualified and experienced and that 
the small water systems themselves find effective. It's a win 
for the smaller and rural communities in my district back in 
Michigan and across the country.
    By passing S. 611 unanimously, the Senate has given us a 
rare opportunity. We can do our part to help this 
reauthorization become law if we can all agree to approve the 
bill exactly as it passed the Senate so that, if the House 
passes it, it will go directly to the President for his 
signature. We would avoid the risk of returning it to the 
Senate or negotiating differences in a Conference committee.
    By helping this bill become law, we help our constituents 
who struggle every day to make sure that their small water 
systems meet those stringent regulatory requirements rooted in 
the Safe Drinking Water Act's standards. I hope that today's 
hearing gives all Members the information they need to support 
S. 611 as it takes another step toward enactment. I support the 
legislation and urge my colleagues to do likewise.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
